LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

November 25, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-496: DISH NETWORK L.L.C. V. THOMAS H. KRAKAUER, ON BEHALF OF A
CLASS OF PERSONS
Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Petitioner, on November 25, 2019, I caused service to be made pursuant
to Rule 29 on the following counsel for the Respondents:
RESPONDENTS:
Deepak Gupta
Gupta Wessler PLLC
1900 L Street, NW
Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com
This service was effected by depositing three copies of the Petitioner's Reply
Brief in an official “first class mail” receptacle of the United States Post Office as well
as by transmitting a digital copy via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

